        OFFICE OF INSPECTOR GENERAL


                                 Catalyst for Improving the Environment


Audit Report



       EPA Needs to Better Manage
       Counter Terrorism/Emergency
       Response Equipment

       Report No. 2004-P-00011


       March 29, 2004
Report Contributors:          Stephen Burbank             John Richberg
                              Michael Davis               Jennifer Hutkoff
                              Charles Randall             Sanjay Prakash
                              Michael Petscavage




Abbreviations


CT/ER           Counter Terrorism/Emergency Response

EPA             Environmental Protection Agency

FAR             Federal Acquisition Regulation

OARM            Office of Administration and Resources Management

OIG             Office of Inspector General

OHS             Office of Homeland Security

OSWER           Office of Solid Waste and Emergency Response




Cover Photo:	          Emergency Response Demonstration Exercise held July 2003 in
                       Portland, Oregon, using counter terrorism/emergency response
                       equipment (OIG photo)
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                         March 29, 2004

MEMORANDUM

SUBJECT:	          EPA Needs to Better Manage Counter Terrorism/Emergency
                   Response Equipment
                   Audit Report No. 2004-P-00011

FROM:	             Robert Mitchell, Director for Contract Audits \signed\

                   Office of Inspector General (2421T)


TO:	               Marianne Lamont Horinko, Assistant Administrator

                   Office of Solid Waste and Emergency Response (5101T)


                   David J. O’Connor, Acting Assistant Administrator
                   Office of Administration and Resources Management (3101T)

                   Mary U. Kruger, Director, Office of Homeland Security
                   Office of the Administrator (1109A)

This is our final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This audit report contains findings that
describe problems the OIG has identified and corrective actions the OIG recommends. This
audit report represents the opinion of the OIG and the findings contained in this report do not
necessarily represent the final EPA position. Final determinations on matters in this audit report
will be made by EPA managers in accordance with established audit resolution procedures.

We would like to acknowledge the cooperation and assistance provided by your staff, as well as
regional staff, during the course of our audit.

Action Required

In accordance with EPA Manual 2750, the Assistant Administrator, Office of Solid Waste and
Emergency Response (OSWER), in coordination with the Office of Administration and
Resources Management, the Office of Homeland Security, and the regions, is required to provide
a written response to this report within 90 calendar days of the report date. OSWER should
include a corrective actions plan for agreed- upon actions, including milestone dates. This report
will be available at http://www.epa.gov/oig.
If you or your staff have any questions, please contact me at Mitchell.Robert@epa.gov, or
Stephen Burbank, Assignment Manager, at Burbank.Stephen@epa.gov.
                    Executive Summary


Purpose

          We conducted this audit to determine whether the Environmental Protection
          Agency (EPA) has adequate processes for identifying, obtaining, maintaining,
          deploying, and tracking equipment needed to respond to terrorist acts and
          Nationally Significant Incidents (events that may exceed the resources of a single
          EPA region). We considered the following questions:

          •	 Does EPA have adequate processes for identifying and obtaining needed
             counter terrorism/emergency response (CT/ER) equipment?
          •	 Did EPA comply with the Federal Acquisition Regulation when purchasing
             CT/ER equipment?
          •	 Does EPA have adequate processes for maintaining and moving the
             equipment?
          •	 Does EPA have an adequate process for tracking the equipment in its
             systems?

Results of Review

          EPA complied with the Federal Acquisition Regulation when purchasing CT/ER
          equipment, and has an adequate process for moving equipment. However, EPA
          does not have adequate processes for identifying, obtaining, maintaining, and
          tracking equipment needed to respond to terrorist acts and Nationally Significant
          Incidents. EPA leadership did not move expeditiously to develop sufficient EPA
          capability and capacity to respond to the consequences of a major terrorist act or
          Nationally Significant Incident. Specifically:

          •	 EPA took 12 months to identify salient characteristics (the key performance
             characteristics needed to actually purchase the items) for 11 of 13 categories
             of CT/ER equipment, and after an additional 6 months, had still not obtained
             almost 40 percent of the items. Further, for more than a year, EPA paid for
             warehouse space for equipment not yet obtained.

          •	 EPA’s older CT/ER equipment on hand has been poorly maintained, and
             maintenance records were sometimes inaccurate.

          •	 EPA does not have a national system for tracking CT/ER equipment.

          This happened because EPA did not develop a coordinated plan with aggressive
          milestones and points of accountability for identifying, obtaining, maintaining,
          and tracking CT/ER equipment. As a result, EPA’s ability to protect public

                                           i
         health and the environment in the event of future terrorist attacks and Nationally
         Significant Incidents may be impaired. Also, since the Agency had obligated
         almost $3.7 million for warehouse space before significant quantities of
         equipment were delivered, a portion of that amount was needlessly reserved.

Recommendations

         We recommended that the Assistant Administrator, Office of Solid Waste and
         Emergency Response, in coordination with the Office of Administration and
         Resources Management, the Office of Homeland Security, and the regions,
         develop a plan with aggressive milestones and points of accountability, for
         identifying, obtaining, maintaining, and tracking CT/ER equipment.

Agency Comments and OIG Evaluation

         We held an exit conference with the Agency on March 25, 2004. In addition,
         EPA provided comments to our draft report and, where appropriate, we made
         revisions. While EPA generally agreed with the recommendations in our report,
         they disagreed with many of the findings. The Agency’s comments and our
         evaluation are detailed in the following chapters. We included EPA’s complete
         response as Appendix A.




                                          ii
                                         Table of Contents



Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        i




 Chapters


          1       Introduction          ...........................................                                       1


          2       EPA Needs to Improve Procedures for

                  Identifying and Obtaining CT/ER Equipment . . . . . . . . . . . . . . . . .                             5


          3       EPA Needs to Improve CT/ER Equipment Maintenance . . . . . . .                                         11 


          4       EPA Does Not Have a National System

                  for Tracking CT/ER Equipment . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   15 




 Appendices


          A       Agency Response                ......................................                                  17 


          B       Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   31 





                                                             iii
                                Chapter 1
                                Introduction
Purpose

          We conducted this audit to determine whether the Environmental Protection
          Agency (EPA) has adequate processes for identifying, obtaining, maintaining,
          deploying, and tracking equipment needed to respond to terrorist acts and
          Nationally Significant Incidents. Nationally Significant Incidents are events that
          may exceed the resources of a single EPA region, such as the September 11, 2001
          World Trade Center collapse and the February 1, 2003 Columbia Space Shuttle
          disaster. We considered the following questions:

          •	 Does EPA have adequate processes for identifying and obtaining needed
             counter terrorism/emergency response (CT/ER) equipment?
          •	 Did EPA comply with the Federal Acquisition Regulation (FAR) when
             purchasing CT/ER equipment?
          •	 Does EPA have adequate processes for maintaining and moving the
             equipment?
          •	 Does EPA have an adequate process for tracking the equipment in its
             systems?

Background
          Since its inception in July 1970, EPA has been responsible for responding to, and
          mitigating, hazardous situations presenting significant danger to human health
          and the environment. In the wake of the 2001 terrorist activities at the World
          Trade Center and Pentagon, and the anthrax incidents, EPA’s counter terrorism
          responsibilities expanded to better coincide with its new role in homeland
          security. Subsequently, EPA combined its Counter Terrorism and Emergency
          Response equipment, hereafter referred to as CT/ER equipment. Public laws that
          facilitate EPA’s becoming more involved in efforts to prepare and respond to
          terrorism include:


             Public Law          Date                               Result

           PL 107-117      January 2002        Appropriated $41.2 million to EPA Hazardous
                                               Substance Superfund for counter terrorism.

           PL 107-206      August 2002         Appropriated $50 million to EPA for Science and
                                               Technology for counter terrorism.

           PL 107-296      November 2002       Provided procurement flexibility for purchases for
                                               defending against and recovering from terrorism.



                                           1
         As a result of these laws, EPA took the following actions:

                Date                                       Action

          March 2002         The Office of Solid Waste and Emergency Response (OSWER)
                             issued Guidance for the FY02 Homeland Security Supplemental
                             Budget, to allocate supplemental funds to regions for specific
                             counter terrorism needs (i.e., equipment purchases and
                             upgrades).

          April 2002         OSWER Emergency Response Technology Group determined
                             CT/ER equipment needs, to respond to future attacks.

          May 2002           OSWER issued 60-Day Task Force Report on its review of the
                             performance and capabilities of the existing emergency response
                             contracting network to handle large terrorist incidents.

          September 2002     The Administrator issued the Strategic Plan for Homeland
                             Security, to ensure EPA is able to meet its traditional mission and
                             its new homeland security responsibilities.

          February 2003      The Administrator created the Office of Homeland Security (OHS),
                             to lead and coordinate homeland security activities and policy
                             development across all EPA program areas.

          April 2003         OSWER identified “salient” (key) characteristics for CT/ER
                             equipment needs, and provided the Office of Acquisition
                             Management, within the Office of Administration and Resources
                             Management (OARM), with information needed to procure CT/ER
                             equipment.

          June 2003          OSWER issued Guidance for FY03 Homeland Security
                             Resources, then allocated funds to regions for specific counter
                             terrorism needs (i.e., equipment purchases and upgrades).

          June 2003          The Administrator issued the National Approach to Response
                             Policy describing how to manage emergency response assets
                             (i.e., equipment) during a Nationally Significant Incident.



         EPA determined, in part due to these activities, that to be better prepared for
         future terrorist acts and Nationally Significant Incidents, it needed to purchase
         more CT/ER equipment, establish maintenance contracts, and create a national
         equipment tracking system. As a result, EPA began to identify and purchase
         needed equipment.

Scope and Methodology

         We performed this audit from March to November 2003 in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. Our audit included site visits to EPA Headquarters and three regional


                                           2
          warehouses, and attendance at the 2003 National Superfund Project Officer/
          Contracting Officer Training Conference.

          To determine what equipment was needed, we interviewed EPA OHS, OSWER,
          OARM (including the Office of Acquisition Management), and regional officials
          involved in identifying and procuring equipment. We also reviewed related
          documentation, including OSWER’s Emergency Response/Counter-Terrorism
          Equipment Recommendations and EPA’s Strategic Plan for Homeland Security.

          To determine whether EPA complied with the FAR when purchasing equipment,
          we reviewed Blanket Purchase Agreements and warehouse contracts for
          compliance with applicable FAR provisions.

          To determine whether EPA has adequate processes for maintaining equipment
          and moving it as needed, we conducted interviews with EPA personnel at various
          levels in OHS, OSWER, and the Regions to identify EPA policies related to
          CT/ER equipment maintenance and transportation. We reviewed the OSWER
          60-Day Task Force Report on EPA’s Emergency Response Contracting Network
          recommendations, and the maintenance and transportation provisions of the
          Regional warehouse contracts. We performed limited testing of the accuracy of
          the inventory and maintenance records in the Regional tracking systems. We did
          not review internal controls associated with inputting and processing information
          in the tracking systems.

          To determine whether EPA has an adequate process for tracking equipment in its
          systems, we interviewed national and regional project officers and project
          managers to identify the tracking systems currently used in each Region, and
          plans for a national tracking system. We also reviewed requirements relating to
          implementing a national tracking system, including EPA Directive 2100,
          Information Resources Management Policy Manual; and Office of Management
          and Budget Circular A-130, Management of Federal Information Resources.

          There have been no previous audits performed in this area.

Internal Control Structure

          In planning and performing the audit, we reviewed management controls related
          to our objectives. We examined the Fiscal Year 2003 Federal Managers’
          Financial Integrity Act Annual Assurance Letters issued to the then Acting EPA
          Administrator by the Deputy Chief of Staff, and by the Principal Deputy Assistant
          Administrator for OSWER. The Deputy Chief of Staff identified, under
          management challenges, OHS’s tremendous workload and small size.




                                          3
Compliance With Laws and Regulations

         EPA has complied with laws and regulations (the FAR) pertaining to its efforts to
         procure and maintain CT/ER equipment. However, needed process
         improvements are discussed in Chapters 2, 3, and 4.




                                         4
                                Chapter 2
         EPA Needs to Improve Procedures for
      Identifying and Obtaining CT/ER Equipment
          While EPA’s guidance emphasized the urgency of obtaining needed CT/ER
          equipment, EPA took 12 months to identify salient characteristics for 11 of 13
          CT/ER equipment categories, and after an additional 6 months EPA had still not
          obtained almost 40 percent of the items. Further, EPA had obtained and been
          paying for warehouse space for this equipment, including items still not
          purchased, for a year. EPA leadership focused on building consensus on
          equipment specifications among EPA regions without concurrently establishing
          aggressive milestones and accountability for obtaining the equipment. As a
          result, EPA’s ability to protect public health and the environment in future
          terrorist attacks or Nationally Significant Incidents may be impaired, and EPA
          obligated almost $3.7 million for warehouse space, a portion of which was
          needlessly reserved.

Urgently Needed CT/ER Equipment Slowly Identified,
Some Not Yet Purchased

          EPA issued guidance, allocated funds, performed studies, created a Strategic Plan,
          established the OHS, and created the National Approach to Response to provide
          direction to its counter terrorism preparedness efforts. These activities point out
          the urgent need to identify, procure, maintain, transport, and track CT/ER
          equipment. For example, the OSWER Guidance for Implementation of the FY02
          Homeland Security Supplemental Budget for Improvements to the Emergency
          Preparedness and Response Program, issued March 29, 2002, stated:

                 To meet the expectations of Congress, we must move expeditiously
                 to use these funds to accomplish our key objective, which is to
                 develop sufficient EPA capability and capacity to respond to the
                 consequences of a major terrorist act anywhere in the nation....

          On December 23, 2002, OSWER’s Class Justification for Other than Full and
          Open Competition for awarding warehouse contracts stated that:

                 Equipment shortages ...may result in serious injuries or death to
                 the U.S. citizenry and greater than necessary financial loss to
                 private and public properties if additional terrorist acts occur. It
                 is imperative that EPA is positioned to adequately respond both
                 immediately and simultaneously to terrorist acts as well as other
                 environmental emergencies.



                                           5
Although EPA complied with the FAR when purchasing CT/ER equipment, the
Agency did not act in an urgent manner to identify its needs for all CT/ER
equipment. In April 2002, OSWER, Regional Removal Managers, and On-Scene
Coordinators met as the Emergency Response Technology Group to make
decisions about equipment specifics. Meeting participants at that time decided on
108 equipment items (subsequently reduced to 97 items), sorted into 13
categories, including monitoring equipment and personal protective equipment.
The “salient” characteristics (the key performance characteristics needed to
actually purchase the items) for Categories 1, personal protective equipment, and
5, radiation monitoring equipment, were determined between July 2002 and
November 2002. These categories together accounted for 24 of the 97 items.

However, OSWER did not begin to finalize salient characteristics for the other
11 categories involving the remaining 73 items (75 percent of the total) until
April 2003. Further, as of October 2003 – when we completed our review in this
area – the salient characteristics for 26 of the items, involving 5 categories, had
still not been identified. This was 18 months after identifying the original
108 items. Also as of October 2003, EPA had not placed Blanket Purchase
Agreements or regional solicitations for almost 40 percent of the 97 items,
involving 6 categories, which means the items cannot be purchased.

In addition, we noted issues concerning the quantities of purchases needed to
meet EPA’s goals. According to EPA’s Strategic Plan for Homeland Security
(which is currently being revised), EPA plans to be able to respond to five major
simultaneous terrorist incidents by Fiscal Year 2005. (The five was based on
there being four planes used by terrorists on September 11, 2001, plus the anthrax
incidents.) However, EPA officials said they were unable to provide a correlation
between the five-event Strategic Plan goal and equipment quantities, because
each threat is unique and requires different types and quantities of equipment.
We noted that OSWER’s FY02 Homeland Security Supplemental Budget
guidance provides a starting point for estimating equipment needs under these
circumstances:

       Based on our recent experiences, a reasonable level of demand
       might be the need to put 30 On-Scene Coordinators and 100
       response contractors at a new ground zero location anywhere in
       the US within a 24 hour window, and to sustain this operation for
       a period of six months.

Since EPA has not developed the correlation between people and equipment
needed, neither we nor the Agency can determine how many incidents EPA is
prepared to handle or whether EPA will meet its Fiscal Year 2005 goal.

By memorandum dated January 20, 2004, OHS committed to updating the
Homeland Security Strategic Plan, and to establishing a system to monitor
progress of Plan commitments.

                                 6
Warehouse Space Obtained Before CT/ER Equipment Delivered

         Government contracts for supplies and services are normally awarded through full
         and open competition. However, FAR 6.302-2(a)(2) provides that when the
         agency's need for the supplies or services is of such an unusual and compelling
         urgency that the Government would be seriously injured unless the agency is
         permitted to limit the number of sources from which it solicits bids or proposals,
         full and open competition need not be provided.

         Warehouse contracts to store and maintain CT/ER equipment were placed for 8 of
         the 10 Regions using the unusual and compelling urgency provisions of the FAR
         to limit competition. OSWER’s Justification for Other than Full and Open
         Competition for warehouse services stated:

                To perform these acquisitions using full and open competition
                would have continued to [jeopardize] the ability of the
                Government to prepare and respond to terrorist acts that are
                considered to be imminent. Given that the United States had been
                attacked at three different sites and other attacks were being
                predicted, [full] and open competition would have caused
                unnecessary delays in the implementation of an improved response
                and preparedness plan. The possibilities of having delays in
                responding to a national emergency because of the procurement
                process [are] unacceptable. Equipment shortages and the inability
                to move equipment to where it is needed may result in serious
                injuries or death to the U.S. citizenry ....

         Regions 1, 4, 5, 6, 7, 8, and 10 cited this unusual and compelling urgency to limit
         competition for the warehouse services to its Superfund Technical Assessment &
         Response Team contractors. Region 2 also cited unusual and compelling urgency
         when awarding the equipment management and warehouse operation support
         services to its existing small business regional equipment management contractor
         on a sole source basis. The contracts for these regions were awarded before
         December 31, 2002, except for Region 2 (February 2003) and Region 5 (May
         2003). Although EPA was able to justify this lack of competition, it adversely
         affected EPA’s ability to award contracts to small business enterprises in
         furtherance of the Agency’s goals.

         Although the Directors of the Office of Emergency and Remedial Response in
         OSWER and the Office of Acquisition Management determined there was an
         unusual and compelling urgency to justify limiting competition for warehouse
         services, Regions 3 and 9 determined the cost for limiting competition was too
         expensive to justify. Region 9 competitively awarded a small business contract
         for its equipment maintenance services in September 2003, and as of November
         2003 Region 3 was also planning to do so.



                                          7
        If, as the Justification for Other than Full and Open Competition states, delays in
        procurement may result in serious injury or death to the U.S. citizenry, then the
        Agency should have had an integrated plan to expedite the acquisition of the
        equipment as well as warehouse services.

        FAR Part 37 requires the use of performance based contracting to the maximum
        extent practicable. Performance based contracts describe requirements in terms of
        results rather than methods of performing the work, and establish performance
        measures, reward success, and penalize poor performance. However, none of the
        contracts awarded were performance based and only two were awarded to small
        businesses.

        Expediting the warehouse services contracts, but not equipment purchases,
        resulted from EPA’s emphasis on building consensus on equipment specifications
        without establishing aggressive milestones and accountability for purchases. As a
        result, the delays in acquiring CT/ER equipment may impair EPA’s ability to
        protect public health and the environment in the event of future terrorist attacks or
        Nationally Significant Incidents. Further, warehouse contracts existed for a year
        or more with minimal delivery of new CT/ER equipment. Almost $3.7 million
        was obligated for these warehouse contracts, and since almost 40 percent of the
        equipment still has not been purchased and the warehouse space was being
        underutilized, some of the funds could have been put to better use.

Recommendations

        We recommend that the Assistant Administrator, Office of Solid Waste and
        Emergency Response:

        2-1	 Establish a point of accountability for EPA’s CT/ER equipment needs, to
             lead EPA efforts to continually assess whether it has appropriate equipment
             in sufficient quantities to respond to emergency situations consistent with
             the EPA Strategic Plan for Homeland Security.

        2-2	 In coordination with OARM, OHS, and the regions, establish aggressive
             milestones and points of accountability for obtaining needed CT/ER
             equipment, and track progress.

        We recommend that the Office of Homeland Security:

        2-3	 Monitor progress of the above actions against Strategic Plan goals and assist
             with implementation, as appropriate.




                                          8
    We recommend that, as existing warehouse contracts expire, the Office of
    Administration and Resources Management have the Office of Acquisition
    Management:

    2-4 Ensure that the next warehouse contracts are performance-based awards
        using competition to the maximum extent practicable, and that they be
        separate from the future Superfund Technical Assessment and Response
        Team contracts to allow for maximum small business participation.

Agency Comments and OIG Evaluation

    EPA generally agreed with our recommendations. However, EPA did not always
    agree with the findings and conclusions in our report.

    Urgency in Identifying Equipment

    EPA disagreed that it did not act in an urgent manner to identify its CT/ER
    equipment needs. The Agency believes that because it took 3 months to finalize
    salient characteristics for 2 (higher priority) of 13 total categories of CT/ER
    equipment, it did identify equipment needs in an urgent manner. Further, the
    Agency disagreed that without Blanket Purchase Agreements and regional
    solicitations for 40 percent of the 97 items, they could not be purchased. In some
    cases, the Agency indicated the items are below $2,500, or such a small quantity
    is needed that individual regions are taking care of acquiring the items. In other
    cases, the Agency said the regions have pre-existing inventory and will not be
    purchasing additional items. Nonetheless, while EPA believes it acted in an
    urgent manner to identify needs and the salient characteristics for the 2 highest
    priority categories within 3 months, the fact remains it did not identify the salient
    characteristics for the equipment in the other 11 categories for at least 12 months.

    Further, while EPA agreed that salient characteristics for 26 items had not been
    identified as of October 23, 2003, EPA indicated that salient characteristics for
    biological and communication categories will not be determined until
    compatibility issues with its Federal, State, and local partners are resolved. EPA
    also indicated that some items will never have salient characteristics because they
    will be purchased locally in the regions as needed. We recognize there may be
    compatibility issues concerning the biological and communication categories, and
    that the Department of Homeland Security directed EPA not to purchase certain
    biological detection equipment until other issues were resolved. However, at
    least 13 of the 26 items were targeted for the Environmental Response Team and
    as such are not addressed by the Agency’s explanation for delays in identifying
    salient characteristics. Therefore, we believe that EPA did not act in an urgent
    manner to identify the majority of the needed CT/ER equipment.

    In general, as noted in OSWER’s justification for expediting the warehouse
    contracts, the need for CT/ER equipment was driven by the risk that equipment

                                      9
shortages could result in serious injury or death to the U.S. citizenry and loss of
private and public properties if additional terrorist acts occur. We therefore
emphasize the need to expedite the equipment purchases.

Obtaining Warehouse Space

EPA acknowledged that more than a year after awarding the fixed price
warehouse contracts, not all of the equipment had been obtained. However, the
Agency stated the fixed price warehouse contracts were needed immediately due
to the return of Government Furnished Property and already ordered Categories 1
and 5 CT/ER equipment. Placing Government Furnished Property in the
warehouses does not address our comment on wasted warehouse space. We
attribute the underutilization of the warehouse space to the fact that space was
intended to house equipment that, for more than a year, was not purchased.




                                 10
                                Chapter 3
                   EPA Needs to Improve
               CT/ER Equipment Maintenance
          EPA’s older CT/ER equipment currently on hand needs to be better maintained,
          and more accurate maintenance records need to be kept. Responding to
          emergencies in a timely manner requires deploying people and equipment. The
          lack of accountability in the past for equipment maintenance has resulted in
          equipment on hand being in less than full operational status. This reduces EPA’s
          state of readiness and may impair the Agency’s ability to protect public health
          and the environment in the event of future terrorist acts and other Nationally
          Significant Incidents.

Older CT/ER Equipment in Disrepair

          According to the National Approach to Response:

               An effective response to nationally significant incidents will require:
               ... 3) Readily available national resources to assist a given Region or
               Regions... This approach will bring together existing emergency
               response assets [CT/ER equipment] ... to ensure the efficient and
               effective utilization of EPA assets.

          We visited warehouses in two EPA regions and found the following, based on the
          tracking systems maintained by contractors at those facilities:

          •	 Region 2: At a warehouse in Edison, New Jersey, visited on June 18, 2003,
             49 percent (17 of 35) of all older emergency response equipment (present
             before purchases of new CT/ER equipment) were listed as needing
             maintenance. The contractor currently responsible for maintaining the
             equipment identified that these items needed calibration, were broken, or were
             out for repair.

          •	 Region 10: At a warehouse in Seattle, Washington, visited on July 14, 2003,
             33 percent (120 of 364) of the older items were listed as non-operational. The
             contractor’s equipment maintenance list identified these items as: missing,
             damaged, needs scheduled maintenance, needs repair, needs to be excessed,
             needs calibration, or needs factory service. An example of a broken item, a
             hand-held radiation detection monitor, is shown in the following photo.




                                          11
         Non operational SE International RAD Alert Monitor 4 – Source: OIG Photo



         Some of the older CT/ER equipment at these warehouses was inoperable because
         EPA did not ensure the equipment was properly maintained in the past.
         Warehouse contracts, which assigned these responsibilities to contractors, have
         been in place for only a short period of time.

CT/ER Equipment Maintenance Records Inaccurate

         The warehouse contracts require contractors to maintain maintenance records for
         equipment. We reviewed maintenance records for the previously mentioned
         warehouses in Regions 2 and 10. While the maintenance records for the
         warehouse in Region 2 were generally accurate, that was not the case for the
         Region 10 warehouse reviewed.

         The Statement of Work for the warehouse contract in Region 10 states:

              The contractor shall maintain a complete inventory and maintenance
              schedule of the emergency response equipment stored at the
              applicable Region 10 location. All equipment shall be inventoried,
              tracked, maintained and upon request of an EPA official some
              equipment will require transport and delivery to sites.

         The contractor incorrectly reported to Region 10 the operational status of some
         equipment. We reviewed a “weekly equipment listing” dated July 11, 2003, and
         found that 5 of 18 items reviewed were incorrectly classified, as follows:




                                             12
            Item No.       Item Description                  Incorrect Classification

           646163      Radiation Monitor, Rad 4    Classified “Operational,” but the repair
                       (A/B/G)                     board hanging on the warehouse wall
                                                   showed the item in need of factory
                                                   calibration.

           645425      Air Sampling Pump,          Classified “Operational,” but we were told it
                       High Volume                 needed to be calibrated.

           01-02-023   Chem. Agent Detector,       Classified “Factory Service,” but we were
                       Inficon Hapsite GC/M        told that it actually belonged to the
                                                   contractor and was being used at
                                                   contractor’s office.

           339279      Pump, Personal Sampling,    Classified “Spare,” but we were told it
                       Gilian                      needed a battery.

           903318      Water Qual. Monitor,        Classified “Damaged,” but the contractor
                       Grant/YSI Multiparameter    told us it needed to be excessed.



          These examples are anecdotal and cannot be generalized as representative of all
          equipment maintenance records. Nonetheless, they demonstrate that equipment
          status records were not always current and accurate.

Process for Transporting CT/ER Equipment is Adequate

          EPA has an adequate process for moving its CT/ER equipment. One of the
          overarching principles to developing the National Approach to Response was
          that, “The Agency will deploy people and equipment to emergency responses in a
          timely manner to fulfill our mission.” The warehouse contract Statements of
          Work provide for transporting CT/ER equipment in response to emergency
          events.

          EPA conducted a Core Emergency Response evaluation (which is a method of
          assessing Regional readiness for core response elements of the Emergency
          Response program) for the 10 Regions for the transportation element during
          Fiscal Year 2002. The overall scores ranged from a low of 73 percent (Region 6)
          to a high of 100 percent (Regions 2 and 4). In addition, OSWER stated that the
          reaction to the Columbia space shuttle disaster and planned exercises verified that
          equipment from several regions can be mobilized in a timely manner.




                                            13
Recommendation

         3-1	 We recommend that the Assistant Administrator, Office of Solid Waste and
              Emergency Response, in coordination with OHS, OARM, and the regions,
              ensure equipment readiness and the accuracy of maintenance records by
              establishing contractor surveillance plans, including milestones, so that
              contractors:

              (a) identify the condition of all EPA-owned CT/ER equipment;
              (b) repair or discard all equipment in disrepair; and
              (c) periodically validate accuracy of equipment maintenance records.

Agency Comments and OIG Evaluation

         EPA generally agreed with our recommendations, but did not always agree with
         the findings and conclusions in our report. EPA advised us that the equipment we
         identified with maintenance problems was old and obsolete former Government
         Furnished Property needing refurbishing or disposal, and was not considered
         CT/ER equipment. We revised the report to more clearly identify that the
         equipment with maintenance problems (a combination of Government Furnished
         Property and EPA-owned equipment) was older pre-existing inventory. However,
         the Agency’s statement that this former Government Furnished Property was not
         considered CT/ER equipment contradicts its earlier assertion that it does not
         consider the former Government Furnished Property it is taking back or its former
         ER equipment to be distinguishable from CT equipment.




                                         14
                                 Chapter 4
         EPA Does Not Have a National System
            for Tracking CT/ER Equipment
          EPA does not have a national system for tracking CT/ER equipment. A national
          tracking system is needed if EPA is to achieve the overarching goal in the
          National Approach to Response of deploying people and equipment to emergency
          responses in a timely manner. EPA leadership has not placed sufficient emphasis
          on the timely implementation of such a system. As a result, regions are currently
          tracking CT/ER equipment using various systems and are tracking different items.
          This lack of consistency may impact EPA’s ability to protect human health and
          the environment, because a region dealing with a crisis situation may have
          difficulty locating needed equipment in other regions.

Tracking of CT/ER Equipment Not Consistent

          Recommendation #6 of OSWER’s May 2002 document, 60-Day Task Force
          Report on the EPA’s Emergency Response Contracting Network, identified the
          need to track available CT/ER equipment on a national level, and provided
          specific direction for creating a national tracking system.

          Office of Management and Budget Circular A-130, Management of Federal
          Information Resources, and EPA Directive 2100, Information Resources
          Management Policy Manual, establish requirements for developing and
          implementing information systems. OSWER’s Information Management and
          Data Quality Staff oversees the implementation of any new national OSWER
          system to ensure its compliance with these requirements as delegated by the
          Office of Environmental Information.

          However, despite the OSWER recommendation, EPA did not take sufficient
          action to develop a national tracking system, and no such national system exists.
          Currently, 5 different contractors and 3 EPA offices maintain 10 regional tracking
          systems. These tracking systems differ in design and complexity, ranging from
          basic spreadsheets to complex databases. The equipment being tracked in each
          region varies widely, from only counter terrorism equipment to all response-type
          equipment, including Government-Furnished and Contractor-Owned equipment.

          EPA leadership has not placed sufficient emphasis on the timely implementation
          of a system to track the location and operable status of CT/ER equipment. As a
          result, EPA may not be able to readily locate operable CT/ER equipment needed
          for response to terrorist acts or Nationally Significant Incidents, particularly when
          one region dealing with a crisis situation needs equipment from other regions.



                                           15
Recommendation

    4-1	   We recommend that the Assistant Administrator, Office of Solid Waste and
           Emergency Response, in coordination with OHS and the regions, establish an
           aggressive timetable to:

           (a) 	 determine what CT/ER equipment and characteristics (e.g., location and
                 condition) will be tracked; and
           (b) 	 develop and implement a plan, with aggressive milestones and points of
                 accountability, for a national tracking system that complies with Office of
                 Management and Budget Circular A-130 and EPA Directive 2100.

Agency Comments and OIG Evaluation

           EPA had no comments concerning the recommendations, findings, and
           conclusions of this chapter. When providing a response to our final report, EPA
           should provide us with a timetable regarding tracking, including implementing a
           plan for a national tracking system.




                                            16
                                                                                        Appendix A

                                  Agency Response

                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460




                                                                                      OFFICE OF
                                                                             SOLID WASTE AND EMERGENCY
                                                                                     RESPONSE


                                           March 5, 2004

MEMORANDUM

SUBJECT:         Comments on Draft Audit Report: EPA Needs to Better Manage Counter
                 Terrorism/Emergency Response Equipment, Project No. 2003-000450, dated
                 January 23, 2004

FROM:            Marianne Lamont Horinko,/s/
                 Assistant Administrator

TO:              Nikki Tinsley, Inspector General


        This memorandum transmits the Agency’s consolidated response to the subject draft
audit report. With this memo, I formally request that EPA’s comments be included as part of the
final version of this report. Although the draft report and its findings are directed principally to
EPA’s Office of Homeland Security (OHS), my office has operational responsibility for the
Emergency Response Program and was, with the Office of Administration and Resources
Management (OARM), responsible for the activities that were the subject of the audit. This
response was coordinated with both OARM and with OHS.

        The procurement, maintenance and accurate tracking of Counter Terrorism and
Emergency Response equipment is an important component to the Agency’s readiness to
respond to incidents which threaten human health and the environment. In the post-September
11th rush to ready EPA for the next terrorist incident, OSWER, OARM and the regions worked
hard to identify national needs for interoperable equipment and to expeditiously purchase it. I
believe that their efforts have been successful and that they have substantially contributed to our
current operational readiness. With that said, EPA generally agrees with the recommendations
made in this report and has work underway to implement many of them. However, we
substantially disagree with many of the report’s findings which we believe to be based on
inaccurate conclusions drawn from less than complete reporting of the facts surrounding the
areas audited. It is therefore, essential that the attached corrections be made in the final report to

                                                  17
ensure that it reflects a complete and accurate representation of the facts as they existed at the
time of the audit.

        In closing, I would like to point out that throughout this audit staff from OARM, the
regions and my office coordinated extensively with your staff in an effort to explain our
equipment acquisition and maintenance strategy. Unfortunately, the report contains no
acknowledgment of this significant assistance and more importantly, fails to reflect information
that EPA worked hard to provide. I would appreciate your personal attention to helping set the
record straight in the final report. Should you wish to discuss these comments in more detail
please let me know, or your staff may contact Stephen F. Heare in the Office of Emergency
Prevention, Preparedness and Response at (202) 564-7992 (heare.steve@epa.gov).


Attachment

cc:	   Mary U. Kruger, OHS
       David J. O’Connor, OARM
       Robert Mitchell, OIG




                                                 18
                        Response to Audit Report no. 2003-000450

     “EPA Needs to Better Manage Counter Terrorism/Emergency Response Equipment”

                                    January 23, 2004


General Comment:

C	      EPA generally agrees with the recommendations made in this report and has work
        underway to implement many of them. However, we substantially disagree with many of
        the report’s findings which we believe to be based on inaccurate conclusions drawn from
        less than complete reporting of the facts surrounding the areas audited. It is essential that
        the requested corrections be made in the final report to ensure that findings reflect a
        complete and accurate representation of the facts as they existed at the time of the audit.

C	      There continues to be a mis-perception within OIG regarding the role of EPA's Office of
        Homeland Security (OHS). While the report correctly states that EPA's OHS was created
        to "lead and coordinate" homeland security activities across EPA, OHS’ role is focused
        on the development, with input from program and regional offices, of homeland security
        policy and ensuring implementation of EPA's “Homeland Security Strategic Plan.” The
        operational activities identified in this report are the responsibility of the Office of Solid
        Waste and Emergency Response, the Office of Administration and Resources
        Management, and their regional counterparts to implement. For a specific list of
        responsibilities delegated to OHS, please refer to then Administrator Whitman’s memo of
        February 6, 2003, establishing the Office. (Attachment A).


Specific Comments:

        Executive Summary

               Results of Review

1. Page i, Results of Review, 1st bullet, 1st sentence states that, “EPA took 12 months to identify
salient characteristics (the key performance characteristics needed to actually purchase the items)
of CT/ER equipment, and after an additional 6 months, had still not obtained 40 percent of the
items.”

While we agree that some of the lower priority, or 2nd tier equipment did not have salient
characteristics finalized until April, 2003, it should be noted that the emergency response items
were categorized into 13 categories with a priority rating assigned to each of the categories. For
instance Category 1, personal protective equipment, and Category 5, radiation monitoring
equipment, were the highest 1st tier priority. The salient characteristics associated with these
high priority categories were finalized from early July 2002 through November 2002. As a
result, 10 different blanket purchase agreements (BPAs) for hundreds of different items and
accessories were awarded over a few short months beginning in September 2002. Yet, the audit
report focused in solely on development of the salient characteristics for the categories that were
rated as the 2nd tier priority or lower. Also, see item 10 below.

                                                 19
Requested Correction: Audit report should reflect a complete and accurate account of the
                      time and effort it took to identify the salient characteristics of all
                      categories of CT/ER equipment.

2. Page i,1st bullet, 2nd sentence states that, “Further, for more than a year, EPA paid for
warehouse space for equipment not yet obtained.”

While we agree that all of the equipment has yet to be obtained, the Agency had pre-existing
warehouse space requirements, and in most cases was already paying for the warehouse space,
prior to the award of the fixed price Warehouse and Equipment Services (WES) contracts. Most
of the START contractors who were awarded these WES contracts already had these warehouses
and were using them to store the Government-Furnished-Property (GFP) the Agency had made
available to them under the START contracts. The START contractors were invoicing the
Agency the leased cost for the warehouse space as Other Direct Costs (ODCs) under their cost-
reimbursement START contracts. The Agency took back control of most of the old GFP
inventory from the contractors so the OSCs could better utilize, control, and direct the operation
of this formerly provided GFP. By resuming control over much of the old GFP, the Agency had
an immediate need for warehouse space to store this returning inventory. In addition, at the time
the fixed price WES contracts were being awarded, the 1st tier/high priority CT/ER equipment
for Categories 1, personal protective equipment, and 5, radiation monitoring equipment, had
already been, or were about to be, awarded and many regions needed immediate warehouse
space to take delivery of the equipment that had been ordered and was in route to the Regions.

Requested Correction: Audit report should reflect a complete and accurate understanding
                      of the need for timely acquisition of warehouse space to address the
                      returning GFP and the arrival of the newly purchased categories 1
                      and 5 equipment in the late summer and fall of 2002.

3. Page i, 2nd bullet states that, “EPA’s CT/ER equipment on hand has been poorly maintained.”

We disagree that the newly acquired CT/ER equipment on hand has been poorly maintained.
We believe the audit fails to make a critical distinction between the old GFP the Agency had
previously made available to the contractors under the START contracts and the newly acquired
CT/ER equipment which was purchased to support the OSCs. Some of the former GFP is very
old and obsolete. The Agency is working hard on the proper disposal of this old equipment. The
proper disposal of obsolete or excess equipment purchased with Superfund dollars can be a long,
frustrating process. Some of the returned GFP is not considered CT/ER equipment. These items
are part of the old inventory that has yet to be either refurbished and placed in some form of
backup reserve or determined it is appropriate to dispose of the item. The RAD alert monitor
pictured on page 10 of the draft report graphically demonstrates this point. Region 10 tasked its
contractor, Ecology and Environment, Inc., to inventory and assess old equipment, including this
monitor to determine the most cost effective disposition. This monitor required minimal repair
and was put back in service. The monitor pictured on page 10 was in fact, not CT-funded
equipment. We believe it is this old obsolete former GFP equipment taken back from the
START contractors that the audit is referring to when it states the “CT/ER equipment on hand
has been poorly maintained.”

                                                 20
Requested Correction: Audit report should distinguish between the maintenance of the old
                      GFP equipment, some of which is not considered CT/ER
                      equipment, and the newly acquired CT/ER equipment.

4. Page ii, last sentence of paragraph before Recommendations reads, “Since the Agency had
spent almost $3.7 million for warehouse space before significant quantities of equipment were
delivered, a portion of that amount was needlessly spent.”

We disagree that $3.7 million was needlessly for warehouse space. From the time the first WES
contracts were awarded through payments recorded in the Agency’s Financial Data Warehouse
(FDW) as of early January, 2004, the total amount spent for all of the WES contracts is less than
$2.0 million. This includes contracts 68-W-03-011 (Region 1), 68- R2–04-02 (Region 2, CT/ER
portion), 68-68-W-02-079 (Region 4), 68-W-03-012 (Region 5, terminated prior to effective
date), 68-W-03-009 (Region 6), 68-W-02-080 (Region 7), 68-W-02-081 (Region 8), 68-W-R9-
03-05 (Region 9) and 68-W-02-083 (Region 10). See item 2 above which addresses why the
WES contracts were needed and awarded when they were.

Requested Correction: Audit report should reflect a complete and accurate cost of the
                      WES contracts as well as recognize the timely need for warehouse
                      space.

Recommendations

Page ii, Recommendations: OIG recommends that the Director, OHS, in coordination with
OSWER, OARM, and the regions, develop a plan to identify, obtain, maintain, and track CT/ER
equipment. OHS is responsible for developing homeland security policy at EPA and ensuring
implementation of the Agency’s Homeland Security Strategic Plan. However, OSWER has
operational responsibility for the Emergency Response Program and was, with the Office of
Administration and Resources Management, responsible for the activities that were the subject
of the audit.

Requested Correction: The Office of Solid Waste and Emergency Response and the Office
                      of Administration and Resources Management should be directed
                      to implement the recommendations made in this audit.


       Chapter 1

Background

Pages 1 - 2: This section mistakenly implies that EPA's role in homeland security began after the
terrorist events of September 11, 2001. While world events of September 11, 2001, and
thereafter, provided new authorities and responsibilities to the Agency, EPA has implemented
chemical, biological, and radiological emergency preparedness and response programs since its
inception.


                                               21
Requested Correction: The audit should recognize the important roles and responsibilities
                      that EPA implements in the emergency preparedness and response
                      arena as part of its core mission.


Internal Control Structure

Pages 3 - 4: OIG noted that the Deputy Chief of Staff identified the tremendous workload and
small staff size in OHS as a management challenge. It is important to note that OHS was
established in February, 2003, has a permanent staffing level of only 5.5 FTE, and was not fully
staffed at that level until June of 2003. While the audit described in the report was performed
between March and November 2003, many of the activities discussed took place between
January 2002 to June 2003, prior to OHS’ establishment and full staffing.

Requested Correction: The audit should acknowledge that many of the activities evaluated as
                      part of this review took place prior to the establishment of OHS, clarify
                      that OHS is responsible for the development of homeland security
                      policy, and note that its current staffing level of 5.5 FTE is considered a
                      management challenge due to the tremendous workload currently being
                      performed by staff and managers in OHS.

       Chapter 2

5. Page 5, Chapter 2, opening paragraph, 1st sentence, 2nd - 4th lines states that, “EPA took 12
months to identify salient characteristics of CT/ER equipment, and after an additional 6 months
EPA had still not obtained 40 percent of the items.” See items 1 above and 10 below.

6. Page 5, Chapter 2, opening paragraph, 2nd sentence states that, “EPA had obtained and been
paying for warehouse space for this equipment, including items still not purchased, for a year.”
See item 2 above.

7. Page 5, Chapter 2, opening paragraph, last sentence states that, “EPA’s ability to protect
public health and the environment in future terrorist attacks or Nationally Significant Incidents
may be impaired, and EPA spent almost $3.7 million for underutilized warehouse space.” See
item 4 above.

               Urgently Needed CT/ER Equipment Slowly Identified, Some Not Yet
               Purchased

8. Page 6, 1st paragraph, 1st sentence, 2nd line states that, “Agency did not act in an urgent
manner to identify its CT/ER equipment needs.”

We disagree with this statement that the Agency did not act in an urgent manner to identify its
CT/ER equipment needs. The draft of the 60-Day Task Force Report on CT Contracting
Assessments was circulated in April, 2002, and not finalized until May 24, 2002. Acting on the
draft report, OSWER, the Regional Removal Mangers and On-Scene Coordinators met in April,

                                                 22
2002, as the Emergency Response Technical Group to make decisions about equipment needs.
Meeting participants at that time decided on 108 equipment items, which in the intervening 21
months has been reduced to 97 items. By early July, 2002, the salient characteristics for the 1st
tier/high priority CT/ER equipment for Categories 1, personal protective equipment, and 5,
radiation monitoring equipment were being finalized. These 2 highest priority categories
resulted in 10 separate BPAs for hundreds of different items and accessories which were
awarded over a few months period beginning in September, 2002. These high priority CT/ER
equipment purchases were made just before, or soon after, award of the WES contracts which
needed to be in place prior to taking delivery of the equipment.

Requested Correction: Audit report should reflect a complete and accurate account of the
                      time and effort it took to identify the salient characteristics of all
                      categories of CT/ER equipment.

9. Page 6, 1st paragraph, 3rd sentence, 7th line states that, “it was not until April 2003 - a year
later - theat the ‘salient’ characteristics (key performance characteristics needed to actually
purchase the items) for most of the items were determined.” See items 1 above and 10 below.

10. Page 6, 1st paragraph, 4th sentence, 10th line states that, “as of October 2003 - when we
completed our review in this area - salient characteristics for 26 of the items had still been
unidentified. This is 18 months after identifying the original 108 items. Also as of October
2003, EPA had not placed Blanket Purchase Agreements or regional solicitations for almost 40
percent of the 97 items, which means the items cannot be purchased.”

While we agree that as of October 23, 3003, salient characteristics for 26 items had still not been
identified we believe the audit report fails to recognize why this has occurred and we disagree
that EPA had not placed BPAs or regional solicitations for almost 40 percent of the 97 items,
which means the items cannot be purchased. As of October, 2003, salient characteristics were
completed and competitive BPAs were awarded for all nationally consistent CT/ER equipment
items on the desired CT/ER Equipment list in affect at that time. Of the items where no BPA
was in place, the Agency is working with Government-wide workgroups to determine what all
Federal, State and Local responders will utilize in regards to emergency response state-of-the art
initial assessment instruments for bio-warfare agents such as botulism, anthrax and ricin. The
Agency has been able to respond to these types of incidents with the instruments we have. Until
these government-wide issues are resolved, no new potentially incompatible equipment will be
purchased.

Similar Agency-wide and Government-wide workgroups are working on varies field
communications equipment, band-widths, specifications so that everything is compatible and
dose not interfere with one another’s communications needs. The Agency is actively involved in
these efforts. Until these government-wide issues are resolved, no new potentially incompatible
equipment will be purchased.

Other items will never have salient characteristics developed because they were always intend to
be purchased locally in the Regions on an as needed basis. In some cases the Regions have
enough pre-existing inventory that they will not be purchasing additional items. In others cases,

                                                  23
the items are below $2,500 or such a small quantity is needed that individual Regions are taking
care of acquiring the item.

When the Emergency Response Technical Group met in October, 2003, no new salient
characteristics for additional items to be placed under national BPAs were immediately
envisioned at that time. This group will meet again in April, 2004, to once again go over the ER
Equipment list and determine what if any items, should be added, deleted, prioritized and if any
item should be nationally or regionally purchased.

Requested Correction: Audit report should reflect a complete and accurate recording of
                      why a number of items do not currently have salient characteristics
                      developed and why items have and will be purchased without the
                      national salient characteristics ever being developed.

               Warehouse Space Obtained Before CT/ER Equipment Delivered

11. Page 7, 3rd full paragraph, last sentence states that, “This lack of competition limited EPA’s
ability to award contracts to small business enterprises, for which the Office of Acquisition
Management has goals.”

While we agree the WES contracts were not subjected to full and open competition due to
unusual and compelling urgency; in most Regions there was a limited competition for the WES
contract awards. The competition was limited to those contractors who currently hold START
contracts. As such, there was competition, as most Regions have 2 or more START contractors
holding contracts in the Region. None of the current small businesses or 8(a) firms holding a
START contract successfully won any of the WES limited competitive awards because of cost or
their inability to met the unusual and compelling urgency at that time.

The Office of Acquisition Management (AM) has no goals of its own for the award of
socioeconomic contracts. Some goals are established by the Small Business Administration
(SBA) and others are negotiated between the SBA and the Agency’s Office of Small and
Disadvantaged Business Utilization Office (OSDBU). These goals are applicable to, and the
goals of, the Agency and the various AA ships and Regions who utilize contracts to support
their program mission. It is the responsibility of the various Senior Resource Officials (SROs) in
the various AA ships and Regions to meet the goals OSDBU annually establishes from them and
the Agency. OSBDU, OAM and the Regional Contracting Offices work with the SROs in the
various AA ships and Regions to help them achieve their socioeconomic contract goals.

Requested Correction: Audit report should reflect a complete and accurate account of the
                      competitive process as well as the establishment and responsibility
                      for meeting socioeconomic contracting goals.

12. Page 7, last paragraph, last sentence states that, “since warehouse contracts were to be
awarded to meet an unusual and compelling urgency, it is questionable why two regions would
have been allowed to act differently based on cost.”


                                                24
We disagree that there is anything questionable as to why Regions addressed a common unusual
and compelling urgency issue differently. Based on a combination of cost as well as ability to
meet the urgent and compelling need for warehouse space in other ways than the WES form of
contract support, Regions 2, 3, 5, and 9, were able to achieve a best value to the Government that
is different than the other 6 Regions. Each Region is different and has different resources
(personnel and space) available to it at different points in time. The 4 Regions that acted
differently than the other 6 were all able to meet their unusual and compelling urgency for a
period of time with resources other than what turned out to be some rather pricey contractor
support services.

Requested Correction: Audit report should encourage the Regions to explore cost savings
                      options for their follow-on WES contracts.

13. Page 8, 1st paragraph, last sentence states that, “none of the contracts awarded were
performance based.”

We disagree that the WES contract awards were not performance based. The Performance Work
Statement or Scope of Work for all WES contacts were based on performance-based-service-
contract (PBSC) warehouse and equipment contracts found within the Agency and on the
internet from other Departments and Agencies, including the Office of Management and Budget.
The solicitation and resulting contracts describe the Agency’s requirements and not the methods
of performing the work. It was the lack of detail on how to get the work done by the contractors
that resulted in the greatest delays in negotiating these urgent contracts. During the negotiations,
the Contracting Officers repeatedly reminded the contractors the Government had laid out its
stated requirement and it was up to the contractor to propose an efficient best value that
demonstrated how they would meet our needs. Each of the WES contracts converted what had
previously been done in part as a cost reimbursement effort under the START contracts and
combined this with new functions into a fixed price monthly effort. Fixed price, with its cost
risk upon the contractor, is in and of itself a very strong positive incentive for exceptional
service. When combined with past performance evaluations and the inspection of services
clause for fixed price contracts which can cause a contractor to have to re-preform poor work
with no additional reimbursement for cost, fee or profit, these contracts have some significant
penalties for poor performance.

Requested Correction: Audit report should reflect a complete and accurate account of the
                      effort to move the WES contracts to fixed price PBSC and
                      encourage continued PBSC efforts in the competitive follow-on
                      contracts.

14. Page 8, last paragraph before Recommendations, 4th line reads, “the delays in acquiring
CT/ER equipment may impair EPA’s ability to protect public health and the environment in the
event of future terrorist attacks or Nationally Significant Incidents. Further, warehouse contracts
existed for a year or more with minimal delivery of new Ct/ER equipment. Almost $3.7 million
was spent for these warehouse contracts, and since 40 percent of the equipment still has not been
purchased and the warehouse space was being underutilized, some of the funds may have been
put to better use.” See items 1, 2, 4, 8, and 10 above.

                                                25
Recommendations

Page 8, Recommendations 2-1 and 2-2: OIG recommends that the Director, OHS, establish a
point of accountability for EPA’s CT/ER equipment needs and establish milestones and points of
accountability for obtaining needed CT/ER equipment and track progress. Both of these
recommendations, while laudable, are outside of the scope of responsibilities assigned to OHS.

Requested Correction: Recommendations 2-1 and 2-2 should be directed to the Assistant
                      Administrators for OARM and OSWER.

       Chapter 3

               EPA Needs to Improve CT/ER Equipment Maintenance

15. Page i, 2nd bullet, 1st paragraph, 1st line states that, “EPA’s CT/ER equipment currently on
hand needs to be better maintained and more accurate maintenance records were sometimes
inaccurate.” See item 3 above.

Recommendations

Page 12. Recommendation 3-1: OIG recommends that the Director, OHS, in coordination with
OSWER, OARM, and the regions ensure equipment readiness and accuracy of records by
establishing surveillance plans. This responsibility is outside of the scope of responsibilities
delegated to OHS.

Requested Correction:                 Recommendation 3-1 should be directed to the Assistant
                                      Administrators for OSWER and OARM.

       Chapter 4

Recommendation

Page 14, Recommendation 4-1: OIG recommends that the Director, OHS, in coordination with
OSWER and the regions, establish a timetable to (a) determine what CT/ER equipment and
characteristics will be tracked, and (b) develop and implement a plan for national tracking
system. Both of these responsibilities lie outside of the scope of responsibilities delegated to
OHS. However, OHS is aware of other efforts within the Agency to develop a database to track
EPA response equipment nationwide, and will work with the various program offices to ensure
that these efforts are coordinated.

Requested Correction:	                Recommendation 4-1 should be directed to the Assistant
                                      Administrator for OSWER and the regions; and, if
                                      appropriate, to the Assistant Administrator for OARM.




                                                26
                                         Attachment A

All Hands Messages

Washington, DC

Date Published:


02/06/2003 03:05 PM


Title:


Permanent Homeland Security Office


Visit the Agency's Intranet for More Information


All Hands Email-Archive


********************************************************

This message is being sent to all EPA Employees

Please do not reply to this mass mailing.

********************************************************


MEMORANDUM


SUBJECT: Permanent Homeland Security Office


TO: All EPA Employees


Due to the increasing scope of responsibilities facing our Agency in homeland security, I am

pleased to announce the creation of a permanent homeland security office, in the Office of the

Administrator, which will be staffed by full-time career Agency staff. Mary Kruger, the current

Deputy Director of the Office of Radiation and Indoor Air, will serve as office Director. Mary

will report to me, through the Deputy Administrator, and will also closely coordinate her

activities with Susan Mulvaney and Bob Bostock in my office.


Mary brings a great deal of experience and expertise to her new position. She has been the lead

for OAR’s homeland security matters, and has represented OAR on the Homeland Security

Working Group. She has played a key role in developing the Agency’s path forward on

homeland security since 9/11, including preparing the strategic plan and negotiating important

partnerships with the Office of Homeland Security and other agencies. Most recently, she has

been our lead with the White House Office of Homeland Security on the development and

implementation of the BioWatch program.





                                               27
This new office will have several major areas of responsibility including:

       •	      Leading and coordinating homeland security activities and policy development
               across all program areas, including tracking implementation of the Agency’s
               Homeland Security Strategic Plan;

       •	      Coordinating regularly with senior/political leadership within the Agency;

       •	      Serving as point-of-contact for the Department of Homeland Security and the
               White House Office of Homeland Security and representing the Agency, as
               appropriate, on homeland security matters, as well as coordinating Agency
               interaction with the Department of Homeland Security;

       •	      Establishing a more centralized and efficient system for receiving and evaluating
               important classified communications from multiple sources; and

       •	      Supporting program offices' and the regional offices' ability to “do business as
               usual,” while absorbing new responsibilities.

The creation of this office is a natural evolution from the system we’ve been operating under
since September 11. In the 16 months since September 11, the Homeland Security Working
Group has done an outstanding job for the Agency drafting our EPA Homeland Security
Strategic Plan, and helping to coordinate the Agency’s homeland security efforts to date. All of
the members of the work group have taken on these duties in addition to their regular work
assignments.

There’s no doubt that EPA has moved swiftly and effectively to embrace its new homeland
security responsibilities, and the working group played an indispensable role in helping us
achieve the progress we have. I want to thank all those who have served on the Homeland
Security Working Group for their hard work and dedication during this very challenging time.

But since our homeland security duties will continue to occupy an important place in our overall
responsibilities, I believe a small, full-time office is necessary to ensure that we are meeting our
homeland security mission without compromising our traditional mission. I also believe it is
important to have a career employee heading this office, so as to maintain continuity across
administrations.

We are reassigning Mary through the SES mobility program, and will initially use detailees to
staff the office and get it up and running quickly. The office will be located in our headquarters
complex at Federal Triangle in Washington.

We are also establishing a senior-level Policy Coordinating Committee (PCC), which will
replace the Homeland Security Working Group. Like the working group, the PCC will consist of
representatives of the lead regions, and each major program office. PCC membership will
include AAs and RAs, plus one, and will have decision-making authority regarding homeland
security issues.

                                                 28
Meetings of the PCC will be held on an as-needed basis, so that its members can discuss major
policy issues, report progress on Strategic Plan implementation, and share other information as
designed by the Committee.

I will, along with the Deputy Administrator, chair the Homeland Security PCC and Mary Kruger
will serve as its executive director.

The new Homeland Security PCC complements the National Incident Coordination Team
(NICT), which Debbie Dietrich will continue to chair and convene. Where the NICT has primary
operational responsibilities in the event of an incident, the PCC will have primary policy making
responsibilities on an on-going basis.

The Homeland Security PCC will also be able to serve as an executive committee during a
national incident, ensuring that the Agency’s senior leadership is able to efficiently come
together to provide policy direction, as needed, to those undertaking the response.

I believe this new structure, which we hope to have in place by the end of the month, will ensure
that as we move forward, EPA will continue to meet its homeland security responsibilities
effectively and efficiently.


Christine Todd Whitman




                                               29
30

                                                                            Appendix B

                                 Distribution

EPA Headquarters

    Office of Administrator

    Assistant Administrator, Office of Solid Waste and Emergency Response (5101T)

    Acting Assistant Administrator, Office of Administration and Resources 

           Management (3101T)
    Director, Office of Homeland Security (1109A)
    Comptroller (2731A)
    Agency Followup Official (the CFO) (2710A)
    Deputy Chief Financial Officer (2710A)
    Agency Audit Followup Coordinator (2724A)
    Audit Followup Coordinator, Office of Administrator (1104)
    Audit Followup Coordinator, Office of Solid Waste and Emergency Response (5103)
    Audit Followup Coordinator, Office of Administration and Resources
           Management (3102A)
    Associate Administrator for Congressional and Intergovernmental Relations (1301A)
    Associate Administrator, Office of Public Affairs (1101A)
    Inspector General (2410)

EPA Regions

    Region Administrators (1-10)

    Audit Followup Coordinators, Regions (1-10)





                                         31
